                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

     Case Number: A02-37                                                                       Page 1 of 1



           Our office received a complaint concerning potential research falsification. complaint1 focuses
           on the "suspicious" nature of an experiment shown on the web site2 of an NSF sponsored
           research program. The purpose of the experiment is to show how structures may fail under
           stress. Specifically, the complainant states that the experiment shown on the web site is
           "suspicious because the 'old technology' square column in the middle . . . is loaded with . . .
           twice as much" weight as the circular columns on the side. Complainant infers that the circular
           columns on the side represent a "new design" structure and that the new design structures bear
           only half the weight of the "old technology" square columns in the experiment. Complainant
           suggests that this experiment is deceptive because it makes the newer circular columns, on either
           side of the "old technology" square column, appear to be able to sustain the effects of stress
           simulated via this experiment.

            A review of the website indicates that the authors of the web site make no comparative claim
           between the square and circular columns. The web site clearly states that the video experiments
           simply are an experimental representation of the progressive collapse of reinforced concrete. The
           web site makes clear that the center column (what the complainant refers to as "old technology")
           is typical of reinforced concrete construction before the 1970's. However, no mention is made of
           the nature or construct of the outer circular columns and no claim is made as to their ability to
           withstand the same shearing force. The apparent sole purpose of the experiment was to
           demonstrate the effects of stress on older concrete technology.

           We conclude that there is no indication of research falsification. Accordingly, this case is closed.




I'
 NSF OIG Form 2 (1 1/02)
